 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




CENTERS FOR DISEASE CONTROL AND
   PREVENTION DID NOT FULLY
 MONITOR SOME OF ITS CONTRACTS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                         July 2013
                                                       A-04-12-01012
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 The Centers for Disease Control and Prevention did not fully monitor some of its
 contracts in accordance with the terms of the contracts and certain Federal
 requirements. Without current contract performance evaluations, it did not have
 information necessary for making future contracting decisions.

WHY WE DID THIS REVIEW

A growth in the number of grants and contracts has led to significantly increased workloads for
the Centers for Disease Control and Prevention’s (CDC) Procurement and Grants Office (PGO)
staff. However, budget and staffing levels within PGO have remained the same. As a result,
there is a risk that CDC cannot manage oversight of its contracts according to the terms of the
contracts or Federal requirements.

The objective of our audit was to determine whether CDC monitored select contracts awarded
under the Prevention and Public Health Fund (PPHF) program using funds provided through the
Patient Protection and Affordable Care Act (ACA) in accordance with the terms of those
contracts and certain Federal requirements.

BACKGROUND

The ACA, P.L. No. 111-148, was signed into law on March 23, 2010. The ACA funded, among
other things, the PPHF. The PPHF expands and sustains national investment in prevention and
public health programs to improve health and help restrain the rate of growth in private- and
public-sector health costs. The PPHF provided for contracts to support efforts to improve HIV
data collection; reduce tobacco use; and track, monitor, and respond to disease outbreaks.

In fiscal year 2010, CDC received $192 million in ACA funding to be used for PPHF activities.
CDC used $55 million of the funding to award 19 PPHF contracts.

The Federal Acquisition Regulation, the Health and Human Services Acquisition Regulation,
and the terms of each contract contain various requirements for contracting agencies to follow
when monitoring contracts. One contract-monitoring requirement is that program officials
evaluate contractor performance. The terms of the sampled contracts require that this evaluation
be conducted at least annually.

WHAT WE FOUND

CDC did not fully monitor some of its contracts in accordance with the terms of the contracts
and certain Federal requirements. Although CDC completed progress reports, reviewed and
verified contractor invoices, and authorized contract modifications in writing for each of the
contracts, CDC did not evaluate performance for three contracts in our sample of five PPHF
contracts and did not do so timely for the remaining two.




CDC Did Not Fully Monitor Some of Its Contracts (A-04-12-01012)                                    i
CDC did not have procedures in place to ensure that staff conducted the required contractor
performance evaluations timely. Specifically, CDC’s standard operating procedures for contract
administration did not address performance evaluations. Without current contract performance
evaluations, CDC did not have information necessary for making future contracting decisions.

WHAT WE RECOMMEND

We recommend that CDC follow FAR section 42.1502 and update its standard operating
procedures for contract administration to address performance evaluations.

CDC COMMENTS

In comments on our draft report, CDC concurred with our recommendation. CDC also described
the corrective actions that it has taken to ensure improvement in the contract monitoring process.




CDC Did Not Fully Monitor Some of Its Contracts (A-04-12-01012)                                  ii
                                                     TABLE OF CONTENTS


INTRODUCTION ..................................................................................................................... 1

           Why We Did This Review ............................................................................................. 1

           Objective ........................................................................................................................ 1

           Background .................................................................................................................... 1

           How We Conducted This Review.................................................................................. 1

FINDING ................................................................................................................................... 2

           Contractor Performance Not Evaluated ........................................................................ 2

RECOMMENDATION ............................................................................................................. 3

CDC COMMENTS.................................................................................................................... 3

APPENDIXES

           A: Audit Scope and Methodology ................................................................................ 4

           B: Federal Requirements............................................................................................... 6

           C: Contracts Selected for Review ................................................................................. 7

           D: Related Office of Inspector General Reports ........................................................... 8

           E: Centers for Disease Control and Prevention Comments .......................................... 9




CDC Did Not Monitor Some of Its Contracts (A-04-12-01012)                                                                                         iii
                                               INTRODUCTION

WHY WE DID THIS REVIEW

A growth in the number of grants and contracts has led to significantly increased workloads for
the Centers for Disease Control and Prevention’s (CDC) Procurement and Grants Office (PGO)
staff. However, budget and staffing levels within PGO have remained the same. As a result,
there is a risk that CDC cannot manage oversight of its contracts according to the terms of the
contracts or Federal requirements.

OBJECTIVE

Our objective was to determine whether CDC monitored select contracts awarded under the
Prevention and Public Health Fund (PPHF) program using funds provided through the Patient
Protection and Affordable Care Act (ACA) in accordance with the terms of those contracts and
certain Federal requirements.

BACKGROUND

The ACA, P.L. No. 111-148, was signed into law on March 23, 2010. The ACA funded, among
other things, the PPHF. The PPHF expands and sustains national investment in prevention and
public health programs to improve health and help restrain the rate of growth in private- and
public-sector health costs. The PPHF provided for contracts to support efforts to improve HIV
data collection; reduce tobacco use; and track, monitor, and respond to disease outbreaks.

In fiscal year (FY) 2010, CDC received $192 million in ACA funding to be used for PPHF
activities. CDC used $55 million of the funding to award 19 PPHF contracts.

The Federal Acquisition Regulation (FAR), the Health and Human Services Acquisition
Regulation (HHSAR), and the terms of each contract contain various requirements for
contracting agencies to follow when monitoring contracts. One such contract-monitoring
requirement is that program officials evaluate contractor performance. The terms of the sampled
contracts require this evaluation to be conducted at least annually.

HOW WE CONDUCTED THIS REVIEW

We judgmentally selected and reviewed five contracts to determine whether CDC monitored the
contracts in accordance with the terms of the contracts and certain Federal requirements. 1
Specifically, we determined whether CDC performed the following contract monitoring tasks:
(1) completing progress reports and performance evaluation reports, (2) reviewing and verifying
contractor invoices, and (3) authorizing contract modifications in writing. We also confirmed

1
 In selecting these five contracts, we considered risk factors such as prior audit findings. We also considered each
contractor’s scope of work and the dollar value of the contracts to ensure that our review covered a variety of types
and sizes of contracts.




CDC Did Not Fully Monitor Some of Its Contracts (A-04-12-01012)                                                         1
that Contracting Officers and Contracting Officers’ Representatives were certified and appointed
in accordance with regulations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B lists the
Federal requirements related to contract monitoring, and Appendix C contains a list of the CDC
contracts that we reviewed. Appendix D contains a list of related OIG reports.

                                               FINDING

CDC did not fully monitor some of its contracts in accordance with the terms of the contracts
and certain Federal requirements. Although CDC completed progress reports, reviewed and
verified contractor invoices, and authorized contract modifications in writing for each of the
contracts, CDC did not evaluate performance for three contracts in our sample of five PPHF
contracts and did not do so timely for the remaining two.

CDC did not have procedures in place to ensure that staff conducted the required contractor
performance evaluations timely. Specifically, CDC’s standard operating procedures for contract
administration did not address performance evaluations. Without current contract performance
evaluations, CDC did not have information necessary for making future contracting decisions.

Contractor Performance Not Evaluated

Program officials were responsible for evaluating contractor performance on the sampled
contracts at least annually (FAR § 42.1502 and the terms of the five contracts). The FAR
requires performance evaluations because officials should consider past performance both when
awarding contracts and when deciding whether to extend contract performance periods (FAR
§ 42.1501). Past performance assessments demonstrate whether the contractor conformed to
contract requirements, forecasted and controlled costs, adhered to the contract schedule, was
reasonable and cooperative, had a record of good business ethics, and had a businesslike concern
for the interest of the customer. This information helps government representatives decide
whether to do business with the contractor in the future.

Of the five contracts in our sample, CDC did not evaluate the annual performance of three
contracts in accordance with the terms of the contracts. In addition, CDC completed the annual
evaluations late for the remaining two contracts. (See the table on the next page.)




CDC Did Not Fully Monitor Some of Its Contracts (A-04-12-01012)                                  2
                                          Annual Contract Evaluations


                    Contracts                    Date Due 2             Date Completed
                Contract A                 March 10, 2011              Not completed
.
                Contract B                 Sept 30, 2011               June 25, 2012
                Contract C                 July 1, 2011                Not completed
                Contract D                 Sept 28, 2011               June 29, 2012
                Contract E                 Sept 28, 2011               Not completed


CDC did not have procedures in place to ensure that staff conducted the required contractor
performance evaluations timely. Specifically, CDC’s standard operating procedures for contract
administration did not address performance evaluations. Without current contract performance
evaluations, CDC did not have information necessary for making future contracting decisions.

                                             RECOMMENDATION

We recommend that CDC follow FAR section 42.1502 and update its standard operating
procedures for contract administration to address performance evaluations.

                                                CDC COMMENTS

In written comments on our draft report, CDC concurred with our recommendation and
described the corrective actions that it has already taken. CDC’s comments, except for technical
comments, are included as Appendix E.




2
    The due date of the contract performance evaluations was 1 year from the effective date of the contract.



CDC Did Not Fully Monitor Some of Its Contracts (A-04-12-01012)                                                3
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

The scope of our audit included a judgmental sample of five contracts (totaling $15 million)
awarded during FY 2010. Our review of internal controls was limited to gaining an
understanding of CDC’s policies and procedures for monitoring contract funds.

We performed our fieldwork at the CDC Procurement and Grants Office in Atlanta, Georgia,
from April through December 2012.

METHODOLOGY

To accomplish our objective, we performed the following steps:

    •   We reviewed applicable Federal laws and regulations.

    •   We reviewed prior audits of CDC’s contracting activities at the Centers for Disease
        Control and Prevention.

    •   We reviewed CDC’s policies and procedures for monitoring contracts.

    •   We identified the universe of PPHF contracts awarded during FY 2010 using funds
        allocated through the ACA.

    •   We performed a risk analysis to judgmentally select a sample of five contracts valued at
        $15 million. In selecting these five contracts, we considered risk factors such as prior
        audit report findings. We also considered each contractor’s scope of work and the dollar
        value of the contracts to ensure that our review covered a variety of types and sizes of
        contracts.

    •   We reviewed the five selected contracts and associated contract files to determine
        whether:

            o a Contracting Officer was certified and appointed in accordance with HHSAR
              301.603-72,

            o a Contracting Officers’ Representative was certified,

            o all contract modifications were authorized in writing by the Contracting Officer,

            o progress reports and performance evaluation reports were completed, and

            o contractor invoices were reviewed and verified.




CDC Did Not Fully Monitor Some of Its Contracts (A-04-12-01012)                                    4
    •   We reviewed the contracts to determine their terms and conditions.

    •   We met with CDC to discuss our findings and recommendation.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




CDC Did Not Fully Monitor Some of Its Contracts (A-04-12-01012)                                5
                         APPENDIX B: FEDERAL REQUIREMENTS

CONTRACT MONITORING REQUIREMENTS

The FAR, the HHSAR, and the terms of each contract contain various requirements for
contracting agencies to follow when monitoring contracts. One such requirement is that program
officials evaluate contractor performance. The terms of the sampled contracts require this
evaluation to be conducted at least annually.

In accordance with FAR § 42.1501:

        Past performance information is relevant information, for future source selection
        purposes, regarding a contractor’s actions under previously awarded contracts. It
        includes, for example, the contractor’s record of conforming to contract
        requirements and to standards of good workmanship; the contractor’s record of
        forecasting and controlling costs; the contractor’s adherence to contract schedules,
        including the administrative aspects of performance; the contractor’s history of
        reasonable and cooperative behavior and commitment to customer satisfaction;
        the contractor’s reporting into databases (see subparts 4.14 and 4.15); the
        contractor’s record of integrity and business ethics; and generally, the contractor’s
        business-like concern for the interest of the customer.




CDC Did Not Fully Monitor Some of Its Contracts (A-04-12-01012)                                 6
                      APPENDIX C: CONTRACTS SELECTED FOR REVIEW



                Contract                              Purpose                              Amount
                                     Project management, planning, and
         Contract A
                                     implementation                                          $193,593
         Contract B                  National Web-based data collection                     3,106,740
         Contract C                  Support of life cycle application systems               130,209 3
                                     Development and implementation of
         Contract D
                                     communication and marketing plans                      8,427,044
                                     Data collection to detect changes in
         Contract E
                                     behavior of persons with HIV                           3,164,520
             Total                                                                        $15,022,106




3
    The amount shown ($130,209) represents the ACA-funded portion of a larger contract.


CDC Did Not Fully Monitor Some of Its Contracts (A-04-12-01012)                                          7
       APPENDIX D: RELATED OFFICE OF INSPECTOR GENERAL REPORTS



                           Report Title                            Report Number   Date Issued
Centers for Disease Control and Prevention Did Not Meet Program    A-04-11-01003     4/13/12
Expansion Supplement Requirements for Awarding One Affordable
Care Act Grant
Review of the Centers for Disease Control and Prevention’s         A-04-09-06108    11/12/10
Compliance With Appropriations Laws and Acquisition Regulations-
Contractor E
Review of the Centers for Disease Control and Prevention’s         A-04-09-01066    11/12/10
Compliance With Appropriations Laws and Acquisition Regulations-
Contractor D
Review of the Centers for Disease Control and Prevention’s         A-02-09-02006    11/12/10
Compliance With Appropriations Laws and Acquisition Regulations-
Contractor C
Review of the Centers for Disease Control and Prevention’s         A-02-09-02005    11/12/10
Compliance With Appropriations Laws and Acquisition Regulations-
Contractor B
Review of the Centers for Disease Control and Prevention’s         A-04-08-01059     1/12/10
Compliance With Appropriations Laws and Acquisition Regulations-
Contractor A




CDC Did Not Fully Monitor Some of Its Contracts (A-04-12-01012)                                8
             APPENDIX E: CENTERS FOR DISEASE CONTROL AND 

                            PREVENTION COMMENTS 


        U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES                               Public Health Service


                                                                                   Centers for Disease Control
                                                                                     and Prevention (CDC)
                                                                                   Atlanta GA 30333

   TO:               Deputy Inspector General for Audit Services
                     Department of Health and Human Services

   FROM:             Director, Centers for Disease Control and Prevention

   DATE:             June 12, 2013

   SUBJECT:          Office oflnspector General's Draft Report: " Centers for Disease Control and
                     Prevention Did Not Fully Monitor Some oflts Contracts" (A-04-12-01012)


   The Centers for Disease Control and Prevention (CDC) and our Procurement and Grants Office
   (PGO) appreciate the opportunity to review and comment on the Office oflnspector General's
   (OIG) draft report, "Centers for Disease Control and Prevention Did Not Fully Monitor Some of
   Its Contracts." Thank you for your review of this important issue.

   As stated in the draft report, the objecti ve of this review was to determine whether CDC
   monitored select contracts awarded under the Prevention and Public Health Fund program, using
   funds provided through the Patient Protection and Affordable Care Act, in accordance with the
   terms of those contracts and certain federal requirements . The draft report identified one finding
   regarding the improper monitoring of contracts and provided the following recommendation to
   address this finding:

   Office of Inspector General (OIG) Recommendation: OIG recommends that CDC follow
   Federal Acquisition Regulation (FAR) 42.1502 and update its standard operating procedures
   (SOP) for contract administration to address performance evaluations. FAR 42.15 requires all
   federal agencies to record and maintain contractor past performance information. FAR 42.1502
   establishes thresholds and circumstances under which agencies must prepare an evaluation of
   contractor performance, and FAR 42.1503 requires all agencies to submit past performance
   information reports electronically to the Past Performance Information Retrieval System
   (PPIRS).

   CDC Response: CDC concurs with this recommendation and believes we have addressed the
   finding in an appropriate manner. Prior to receiving the draft report on May 16, 2013, PGO
   proactively developed an SOP, "Contractor Performance Assessment Reporting," to improve
   evaluation of contractor performance and ensure compliance with FAR 42.15 . The SOP was
   issued on April9, 2013, and all PGO acquisition staff received training on the SOP on April 9,
   2013.

   PGO ' s SOP codifies our policy to utili ze the Contractor Performance Assessment Reporting
   System (CPARS) to electronically record evaluations of contractor performance and to submit
   past performance information into PPIRS. The SOP also provides guidance regarding when
   interim and final CPARS reports should be completed.




CD C Did Not Fu lly M onitor Some ofl ts Contracts (A -04-1 2-0101 2)                                    9
   All CDC contracts that require reporting of contractor performance information will be
   registered in CP ARS within 14 days of an award, and CP ARS reports will be completed within
   90 days of the end of the period of performance that is being evaluated. Contracts that were
   awarded prior to the issuance of the SOP, and not registered in CPARS at the time of award, will
   be registered within 14 days of exercising options or contract expiration.

   The SOP includes a clause and provision to be included in all applicable contracts and
   solicitations. The clause and provision serve as notice to contractors of CDC's intent to use
   CPARS for recording and maintaining contractor performance evaluations. Contractors are also
   notified that information contained in the performance evaluations may be used by the U.S .
   Government for future source selections where past performance is an evaluation factor.

   CDC's Contracting Officer's Representative (COR) Appointment Letter was also revised to
   notify CORs of their duty to use CPARS to complete interim and final past performance
   assessments of contractor ' s performance when required by FAR 42 .15, as one of the terms and
   conditions of their appointment.

   Technical comments on the draft report are provided in the attachment. We appreciate your
   consideration of the comments contained in this memo and the technical comments as you
   develop the final report. We are happy to discuss any ofthese issues with you. Please direct any
   questions regarding these comments to Priscilla Patin, OIG Liaison , at (404) 639-7094 or
   iggao@cdc.gov.




                                                      Thomas R. Frieden, M.D. , M.P.H
                                                      Director, CDC


   Attachment




                                                                                                      2


CDC Did Not Fu lly Monitor Some ofI ts Contracts (A -04-1 2-0101 2)                                   10
